 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


   Independent Review of The U.S. Customs
     and Border Protection’s Management
      Assertions on the 2007 Drug Control
            Performance Summary




OIG-08-41                    April 2008
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                           April 18, 2008

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

The attached letter represents the results of a review of the assertions made by management during
the Performance Summary review of the DHS’ Customs and Border Protection (CBP) for the year
ended September 30, 2007, for the Office of National Drug Control Policy (ONDCP). We
contracted with the independent accounting firm KPMG LLP to perform the review. CBP’s
management prepared the Performance Summary in accordance with the requirements of the
ONDCP Circular, Drug Control Accounting, dated May 1, 2007; however, CBP’s management did
not comply with the ONDCP requirements for management’s assertions. As a result the contractors
were unable to provide a report on management’s assertions.

It is our hope that the information in future reports will result in effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                               Richard L. Skinner 

                                               Inspector General 

                                                              u.s. Department of Homeland Security
                                                              Washington, DC 20229

                                                              u.s. Customs and
                                                              Border Protection

                                                              January 14,2008


MEMORANDUM FOR:           RICHARD L. SKINNER
                          INSPECTOR GENERAL
                          DEPARTMENT OF HOMELAND SECURITY

FROM:                      Director U-,JL­ 11)   ~
                           Office of Policy and Planning

SUBJECT:                  Management's Assertions for U.S. Customs and
                          Border Protection's Drug Seizure Data


In compliance with the Drug Control Accounting Circular (the Circular) (May
2007), U.S. Customs and Border Protection (CBP) submits its Performance
Summary Report to ONDCP. The report contains the results of CBP
performance in support of the National Drug Control Strategy.

CBP makes the following assertions:

   (1) Performance reporting system is appropriate and applied - CBP has a
       system to capture performance information accurately and the system was
       properly applied to generate the performance data. The source of the
       data is a combination of Enterprise Data Warehouse (EDW) and Treasury
       Enforcement Communications systems.

   (2) Explanations for not meeting performance targets are reasonable based
       on based on the following wording the in guidance, "An Assertion shall be
       made regarding reasonableness of any explanation... for revising or
       eliminating performance targets."

   (3) Adequate performance measures exists for all significant drug control
       activities - CBP has established at least one acceptable performance
       measure for each Drug Control Decision Unit identified in reports. Each
       performance measure considers the intended purpose of the National
       Drug Control Program Activity.

CBP cannot make the following assertion at this time:

   (1) Methodology to establish performance targets is reasonable and applied.
   ~~oFmtmetE1a~~~<3£Offiati\iRlkWmraffi~WMM~eMElrng.
                                                 vve
   believe that our drug interdiction partners share this view. The performance
   measures focus on the amounts of cocaine, marijuana, and heroin seized at
   and between the ports of entry by or with the participation of CBP Officers,
   Border Patrol Agents, and CBP Air Interdiction Agents. Performance targets
   as envisioned by the Circular, however, conflict with the CBP counter drug
   mission to eliminate the trafficking of drugs. While drug seizures constitute a
   component of the mission, seizing drugs is not the ultimate goal. In fact, as
   the strategy is implemented and mission effectiveness increased, the amount
   of seizures will actually decrease. CBP could then find itself in a situation of
   making progress toward a goal while its failure to achieve targets leads to the
   exact opposite conclusion.

   Measuring success by agency seizures creates a competitive environment
   leading to less collaborative partnerships, team work, and sharing of
   information. Where partnerships do exist, the results can be mutually
   beneficial. For instance, CBP cocaine seizures increased, in part, because
   the Drug Enforcement Administration (DEA) shared intelligence from their
   sensitive sources. In turn, CBP fed DEA the intelligence gained from those
   seizures that enabled DEA to better target the major drug cartels.

   CBP does believe that measuring results, when combined with discussion
   and assessment, is an important tool in improving operations. But
   performance targets can offer an incorrect assessment of agency success,
   particularly if they do not focus on the correct strategic factors. Setting a
   target gives an importance to achieving a number and implies agency
   resources should be expended to do so, even if this is not the case. True
   success is fewer seizures due to weakened drug cartels.

If you have any questions, please have a member of your staff call Ms. Terra
Richardson at 202-344-2843.
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Customs and Border Protection
      Commissioner          

      Chief Financial Officer

      CBP Audit Liaison        


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
